Peac e Corps
Office of Inspector General




                                   Office of Inspector                          Office
                                                                                202.692.2900
                                                                                                     Hotline
                                                                                                   202.692.2915 800.233.5874
                                                                                peacecorps.gov/OIG Online Contact Form
                                                                                U                U   U              U




                                        General                                 OIG Reports
                                                                                U         U        OIG@peacecorps.gov
                                                                                                     U                  U




To:                                  Aaron Williams, Director
                                     Helen Lowman, Regional Director, EMA
                                     Daljit Bains, Chief Compliance Officer

From:                                Kathy A. Buller, Inspector General

Date:                                May 24, 2012

Subject:                             Final Report on the Program Evaluation of Peace Corps/China (IG-12-04-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/China.

Management concurred with all eight recommendations. Based on the documentation provided,
we closed five recommendations: numbers 2, 3, 4, 5, and 6. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

We wish to acknowledge the timely manner in which the post responded to the report and our
recommendations. We also commend the post for the thorough and relevant documentation it
provided in response to all eight report recommendations.

Three recommendations, numbers 1, 7, and 8, remain open. OIG will review and consider
closing recommendations 1, 7, and 8 when the documentation reflected in the agency’s response
to the preliminary report is received. Our comments, which are in the report as Appendix C,
address these matters. Please respond with documentation to close the remaining open
recommendations within 90 days of receipt of this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O'Keefe at 202.692.2904 or to Senior Evaluator Reuben Marshall at
202.692.2903.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:                           Carrie Hessler-Radelet, Deputy Director
Stacy Rhodes, Chief of Staff/Chief of Operations
Elisa Montoya, White House Liaison/Senior Advisor to the Director
Bill Rubin, General Counsel
Helen Lowman, Regional Director, EMA
David Burgess, Chief of Operations, EMA
Maura Fulton, Chief of Programming and Training, EMA
Esther Benjamin, Associate Director, Global Operations
Edward Hobson, Associate Director, Safety and Security
Brenda Goodman, Deputy Associate Director, Volunteer Support
Dorine Andrews, Chief Information Officer
Bonnie Thie, Country Director, China
China Country Desk
Peace Corps
Office of Inspector General




        Countryside in Guizhou Province




                Flag of China


Final Program Evaluation Report:
       Peace Corps/China
             IG-12-04-E

                                          May 2012
                               EXECUTIVE SUMMARY
Over 700 Peace Corps Volunteers have served the people of China since the program was first
launched in June 1993. There is currently one project sector in China: teaching English as a
foreign language (TEFL). At the onset of this evaluation, 163 Volunteers were serving in China,
the highest number since the post’s opening.

The evaluation of Peace Corps/China (hereafter PC/China or “the post”) revealed a post that was
performing well in many key areas. The post’s local staff were experienced, capable, and
dedicated to the Peace Corps mission. The post’s American staff were hard-working and focused
on addressing key operational challenges.

A principal challenge for post was the quality of internal office communications. The evaluation
identified a number of obstacles to open and effective communications that can be attributed to
cultural differences, government monitoring, lack of effective communications infrastructure,
and an unusually busy and stressful year. Senior post staff have taken some steps to improve
communications and this report recommends additional action to strengthen the quality of inter-
office communications.

Volunteers have had success accomplishing the three goals of the Peace Corps mission. They
were very satisfied with support from the post’s staff and were generally happy with their work
sites and assignments. A common area of difficulty for Volunteers was community integration,
which was impacted by Chinese government site placement controls. The country director (CD)
and director of programming and training (DPT) have worked during the past two years to
improve programming and training to facilitate increased community integration and have been
pressing for host government support to shift the placement of Volunteers away from larger
urban schools towards rural schools with fewer resources. However, Volunteers, particularly
those placed at some of the larger schools, still face integration challenges.

Volunteers have adjusted well to a set of unique challenges regarding service in China.
Volunteers had envisioned a “mud hut” experience when they applied for Peace Corps service
but were living in modern, comfortable apartments. Many Volunteers are posted in urban, well-
developed communities, yet they see that their TEFL work benefits students in surrounding poor,
rural communities. Volunteer morale in China was high and the rate of Volunteer resignations
has remained consistently below regional and global averages. In the larger context of U.S.-
China relations, Volunteers believe there are tangible benefits in furthering the second and third
goals of the Peace Corps mission.

The report identifies several additional programmatic weaknesses that needed to be addressed,
including ineffectiveness of the Volunteer leader program, the need for additional staff support
for the peer support network, confusion among Volunteers regarding their emergency
consolidation points, and inaccurate site locator forms (SLFs). Our report contains 8
recommendations, which, if implemented, should strengthen programming operations and
correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: PC/China                                                          i
                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................................ i

HOST COUNTRY BACKGROUND .......................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND ............................................................................. 1

EVALUATION RESULTS ...................................................................................................... 2
         MANAGEMENT CONTROLS ...............................................................................................................................2

         PROGRAMMING ................................................................................................................................................6

         VOLUNTEER SUPPORT .................................................................................................................................... 10

         TRAINING ....................................................................................................................................................... 13


OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................................... 15

INTERVIEWS CONDUCTED ................................................................................................ 16

LIST OF RECOMMENDATIONS ........................................................................................... 18

APPENDIX A: LIST OF ACRONYMS .................................................................................... 19

APPENDIX B: AGENCY’S RESPONSE .................................................................................. 20

APPENDIX C: OIG COMMENTS......................................................................................... 25

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ........................... 26
                          HOST COUNTRY BACKGROUND
China, the world’s fourth largest country, stretches across Eastern Asia and is home to the
world’s largest population with over 1.3 billion people. China is the oldest continuous major
world civilization, with records dating back about 3,500 years. For centuries China stood as a
leading civilization, outpacing the rest of the world in the arts and sciences, but in the 19th and
early 20th centuries, the country was beset by civil unrest, major famines, military defeats, and
foreign occupation.

After World War II, communists under Mao Zedong broke with the Soviet model and announced
a new economic program, the "Great Leap Forward," aimed at rapidly increasing industrial and
agricultural production. Within a year, starvation appeared and from 1960 to 1961 a combination
of poor planning and bad weather resulted in one of the deadliest famines in human history. The
communist party adopted economic policies at odds with Mao's revolutionary vision, and in
1966 Mao launched a movement known as the "Great Proletarian Cultural Revolution," which
pitted sections of party leadership against each other and set China on a course of political and
social anarchy that lasted the better part of a decade. After 1978, Mao's successor Deng Xiaoping
and other leaders focused on market-oriented economic development and by 2000 output had
quadrupled.

For much of the population, living standards have improved dramatically, yet over 400 million
people remain below the United Nations’ poverty line. The 2011 United Nations Human
Development Report ranks China 101 out of 187 countries, placing it between Fiji and
Turkmenistan. 1 Due to a widening gap between China’s developed east coast and inland areas,
the Chinese government has pushed to increase English language education in rural areas as a
prime tool of economic development. Volunteers are placed in western China, where two thirds
of China’s rural poor are located and qualified teachers are scarce. Volunteers work to address a
shortage of over 500,000 English teachers by training future teachers and developing the English
skills of students in vocational areas such as medicine and tourism.


                  PEACE CORPS PROGRAM BACKGROUND
In June 1993, 18 Peace Corps Volunteers arrived at the invitation of the Chinese government to
teach English in Sichuan province in China’s west-central region. Peace Corps offices were
located in Chengdu, the provincial capital. In 1998, after substantial negotiation, a country
agreement was signed by the Ministry of Education and the U.S. Ambassador to China. The
Peace Corps was officially recognized as the U.S.-China Friendship Volunteers Program and
partnered with the China Education Association for International Exchange (CEAIE), an
organization under the Ministry of Education. The program expanded to three neighboring




1
 The Human Development Report publishes an annual Human Development Index (HDI). The HDI provides a
composite measure of three basic dimensions of human development: health, education and income.


Final Program Evaluation Report: PC/China                                                             1
provinces in 1997, 1999, and 2000. In April 2003 the Peace Corps pulled out of China during the
Severe Acute Respiratory Syndrome crisis. 2 Volunteers returned to China in July 2004.

Since opening the program, Volunteers have worked in the TEFL program. TEFL Volunteers
have been assigned primarily to four-year teachers colleges and universities to develop the
English education and teaching skills of Chinese students and teachers destined to become
primary and middle school English teachers in rural areas. Volunteers have also developed the
English language skills of students in vocational areas such as medicine and tourism.

From 2002-2006 the post managed an environmental education program that was phased out due
to misunderstandings between the Peace Corps and the host country regarding the skills and
expertise of environmental education Volunteers. Many Volunteers have continued to address
environmental topics in their classes and secondary activities. Secondary projects have focused
on areas such as organizing clubs (environmental, film, photography, travel, sports, debate,
women’s issues), giving campus-wide lectures (U.S. holidays, U.S. elections, women’s health
issues, environmental protection), and developing English resource centers.

During the past three years the post has proposed moving into new provinces and more rural
placements, which led the Ministry of Education in 2010 to request a program review. The
review, which was conducted jointly by Peace Corps and the CEAIE, was completed in March
2011 with positive findings, yet at the time of the evaluation, an agreement had not been reached
to expand Volunteer placements. The post’s on-board Volunteer strength at the onset of the
evaluation was 163, the highest ever. Over 700 Volunteers have served in China.

The post’s fiscal year (FY) 2011 actual budget was $1.97 million. 3 At the time of the evaluation
the post had 24 staff positions, including one temporary position. The post also employed 24
temporary training staff to assist with pre-service training (PST).


                                      EVALUATION RESULTS
MANAGEMENT CONTROLS

A key objective of our country program evaluation is to assess the extent to which the post’s
resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting.

In reviewing the post’s relationship with the U.S. Embassy in Beijing and the U.S. Consulate in
Chengdu, the Office of Inspector General (OIG) found no significant areas of concern that would
necessitate action by the post. The post enjoyed good relations with the U.S. Embassy in Beijing
and the U.S. Consulate, which was located near the Peace Corps office in Chengdu. A U.S.
2
  Severe acute respiratory syndrome (SARS) is a viral respiratory illness that was first reported in Asia in February
2003. The illness spread to more than two dozen countries before the outbreak was contained.
3
  The post’s budget figure does not include U.S. direct hire salaries or readjustment allowances.


Final Program Evaluation Report: PC/China                                                                               2
Embassy official who recently worked directly with the post was impressed with the program’s
direction and leadership:

       I have no background with Peace Corps and was not involved with them much in the past. I came away
       after six months being a lot more supportive of the Peace Corps mission than I was previously. The CD was
       a big help engaging with me, educating me, taking me to see the Volunteers. I’m kind of a convert at the
       moment and probably will be for the rest of my career. I have a very positive feeling about the program.

The Peace Corps office in Chengdu was a relatively small but capable unit. The Chinese staff
were experienced and skilled. In interviews staff expressed pride in their work and dedication to
the Peace Corps mission. Staff had confidence in the posts programming, training, and
administrative operations and the quality of Volunteer support. The post’s FY 2010-2012
Integrated Planning and Budget System (IPBS) identified the local staff as a main strength of its
operations. Regional managers described the post as high performing. “The strength is the staff,
the host country staff,” said one regional manager. An overseas programming and training
support specialist reviewing the TEFL project in 2008 said of the program and training unit, “I
have never seen a work team that seemed so cohesive and productive!” Six of the program and
training staff from 2008 were still working in the unit.

The post’s American staff were hard-working and committed to enhancing the program. In the
past two years the CD and DPT have worked diligently to implement a number of programming
and training improvements, which are detailed later in this report. Local staff were satisfied with
programming and training improvements and reported that American staff were dedicated to
Volunteers. According to one staff, “the program is as strong as it’s ever been and the CD and
DPT should get credit for that. It’s become more professional in a good way but still responsive
to Volunteer needs.”

Ongoing post challenges include cramped office space, which has had some negative impacts on
office operations. Many of the support staff, including program managers, shared office space
which impacted their productivity and made it difficult to have private discussions with
Volunteers. The post’s conference room shared space with the Volunteer resource library and
Volunteer computer room, which reduced the availability of key Volunteer resources. According
to the post’s FY 2012-2014 IPBS, the office space was designed for fifty percent fewer staff. It
would be difficult for the post to expand its staffing without acquiring additional space.

Most Peace Corps posts are connected to a main server at headquarters but PC/China operates
with a stand-alone server system due to information and technology (IT) security concerns
identified by headquarters staff. The post experienced multiple technical issues following the
installation of the stand-alone server in June 2011. Senior staff at post said the IT issues
negatively affected morale and productivity, and the post’s financial assistant/information and
technology specialist (FA/ITS) estimated that the IT portion of his workload increased from 35
percent to 55 percent following the server’s installation.

The FA/ITS believed that the post, which is 12 hours ahead of headquarters’ time zone, would
benefit from 24-hour IT support. Office of the Chief Information Officer (OCIO) staff reported
their office does not provide 24-hour IT support to accommodate posts in different time zones.
However, following the installation of the stand-alone server an OCIO specialist was designated


Final Program Evaluation Report: PC/China                                                                     3
to support China and the FA/ITS was satisfied with the quality of support. At the time of the
evaluation the post had just installed new wiring in the office and selected a new Internet Service
Provider, and in January 2012 the FA/ITS reported the upgrades had improved some of the
technical issues. We believe that post IT challenges warrant monitoring by the region and OCIO.
Based on recent attention to this issue, we are not issuing a recommendation.

Internal office communications were ineffective.

The critical importance of communications has been emphasized in Peace Corps’ Characteristics
and Strategies of a High Performing Post. This post management resource guide states, “In any
assessment of what makes a post work, open and successful communications among staff and the
existence and feeling of a team are nearly always among the most critical values cited.”

American and local staff expressed a number of dissatisfactions related to internal office
communications. One staff commented, “I’ve been here many years and this year has been the
most difficult. Staff morale is the lowest I’ve ever seen, caused I think by internal
communications…lack of transparency and communication.” Another staff said, “We need to
work on communication within the office. We are all aware of it.” There are a number of factors
discussed below that contribute to these communication issues, including cultural differences,
government monitoring, poor communications infrastructure, as well as an unusually busy and
stressful year for the post.

Cultural Differences
In Chinese culture, indirect communications are customary, and direct communications are
typically avoided. Local staff acknowledged that for cultural reasons they were reluctant to
address issues directly with American staff. One local staff explained, “For Chinese people it is
odd for one person to bring up an issue, no one wants to stand [out], it is very dangerous.” In
previous years the post relied on a local program manager to help bridge the cultural
communication gap. “She was brave enough to say things and had good language skills to be
appropriate and not offensive,” commented one staff. The program manager passed away in
2009. Her loss has resulted in an ongoing cultural communication barrier among staff.

Government Monitoring
In addition to the cultural challenges, inter-office communications at the post were sometimes
limited out of necessity. Activities at the Peace Corps office in Chengdu are assumed to be
monitored by the Chinese government, whose scrutiny was generally considered a fact of life in
China. American staff explained that they were reluctant to discuss certain issues in the office,
particularly concerning partner relations. American staff identified this as a significant challenge
because they relied on the expertise of local staff regarding host country organizations. Yet the
lack of transparency worried local staff that their participation was not valued, which has
undermined the existence and feeling of a team in the office.

Communications Infrastructure
Office communications have not been structured to facilitate the regular and open exchange of
information between staff and across units. Staff meetings were not regularly held and meeting
minutes were not recorded during senior staff meetings. New staff did not receive an orientation



Final Program Evaluation Report: PC/China                                                           4
to learn the roles and responsibilities of other staff and units. The layout of the office was not
conducive to effective communications. Staff were spread across five floors of a building that
had no elevator, with each unit on a different floor.

The absence of regular and open staff interactions has opened the door for speculation and
misunderstandings. One staff said, “People are frustrated, people don’t know what other people
know…In the end there is speculation and I don’t like that.” Another staff reported, “If a staff is
frustrated they should be encouraged to address it with the person rather than talking about it
with others… there is unproductive negative communication going on.” Staff believed that more
interactions between staff, such as regular staff meetings, would have a positive impact on the
quality of internal office communications.

Limited Staff Interactions
Staff were overwhelmed by a series of challenges and events over the course of 2011. An
extensive program review was requested by the CEAIE in 2010 and conducted through the
spring of 2011. In February, on the first day of in-service training (IST), staff learned that a
PC/China Volunteer had passed away in another country. In April, a large United States Senate
delegation visited the post. The training input in July brought the number of Volunteers to the
highest ever since the post opened. Over the summer the post published a PC/China
commemorative book and compact disc to promote the agency’s 50th Anniversary and program
managers enrolled in a rigorous 12-week English teaching course. In August, Vice President Joe
Biden visited the post. The post hosted this OIG Evaluation in October.

Reflecting back on the year’s events, one staff commented, “I’ve heard consistently from other
seasoned staff this has been the most high stress, overworked year people can remember.”
Another staff related, “[Staff] want some normalcy…they are understandably tired. I feel that
way too. We’ve had a tough year, it’s been one extra thing after another.” Local staff said that
during busy times they sought less support from American staff out of concerns they might
create additional work. Staff said also that social interactions with American staff declined, such
as sharing tea breaks.

Senior post staff have taken some steps to improve internal office communications. Weekly
Volunteer issue meetings were implemented in October 2011. Staff reported that the meetings
have been useful as opportunities to sit together and share ideas. Regular staff meetings were
established when the CD first arrived at the post but not all staff found them useful and they were
discontinued. The CD expressed renewed interest in regular staff meetings after attending a
country director conference in September 2011.

               We recommend:

                 1. That the country director collaborate with host country
                    and American staff to develop strategies that address
                    cultural communications barriers and develop plans to:
                    (a) ensure regular communications among staff and
                    across units; and, (b) ensure channels of supervision




Final Program Evaluation Report: PC/China                                                            5
                          between managers and local staff remain active and
                          accessible.


PROGRAMMING

The evaluation assessed to what extent the post had developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

      •    the coordination between the Peace Corps and the host country in determining
           development priorities and Peace Corps program areas;
      •    whether post is meeting its project objectives;
      •    counterpart selection and quality of counterpart relationships with Volunteers;
      •    site development policies and practices.

In reviewing Volunteers’ familiarity with their project goals and objectives, Volunteers’ ability to
accomplish those goals and objectives, counterpart relationships, and Volunteer Assignment
Descriptions (VADs), OIG found no significant areas of concern that would necessitate action by
the post. Eighty-eight percent of interviewed Volunteers reported their familiarity with project
goals was “average” or better and ninety-one percent reported their success accomplishing
primary project objectives was “average” or better.

Volunteers were satisfied with their work activities and their ability to accomplish project
objectives, which mirrored data in the agency’s Annual Volunteer Survey (AVS). The AVS
revealed that 95 percent of the post’s Volunteers were personally satisfied with their primary
assignments, which was significantly higher than the average global response of 81 percent. 4 A
program review requested by the CEAIE in 2010 and conducted in collaboration with Peace
Corps staff determined that Volunteers were effective. The report stated:

           The data gathered from all sources indicates that the Volunteer teachers are qualitatively effective in
           teaching English and in contributing to the students’ language proficiency and skills. Additionally, the
           Volunteers contribute to many other opportunities for formal and informal development of language skills
           through their activities outside the classroom and through secondary projects.

Volunteers were assigned counterparts by their schools, usually a teacher in the English
Department, and 91 percent of interviewed Volunteers characterized their working relationships
with counterparts favorably. Ninety-three percent of interviewed Volunteers said their VAD
described their activities “moderately well” or better.

Although Volunteers were generally satisfied with their work activities, Volunteers reported
challenges adjusting to the contrasts of Peace Corps service in China due to expectations set by
recruitment materials or other sources of information. China is perceived as a wealthy, powerful
nation, which contrasts with the Peace Corps’s standing as a development agency. Volunteers
envisioned a “mud hut” experience when they applied for Peace Corps service but Volunteers in

4
    Data reported from the 2010 AVS. This question did not appear in the 2011 AVS.


Final Program Evaluation Report: PC/China                                                                             6
China lived in modern, comfortable apartments. Volunteers are posted in urban, well-developed
communities, yet TEFL goals benefit rural communities where poverty is more evident by
training teachers to become primary and middle school English teachers in those areas. We note
that the VADs did include accurate information on living and working conditions.

Volunteers adjusted well to these challenges. Volunteer morale in China was high and the rate of
Volunteer resignations, which can be viewed as an indicator of Volunteer satisfaction, has
remained consistently below regional and global averages. In the larger context of U.S.-China
relations, Volunteers believe there are tangible benefits in furthering the second and third goals
of the Peace Corps mission. 5 Volunteer comments included:

         “The American-China relationship is the key relationship in the world now and its marked by
         misunderstandings. I can do a lot of work towards improving that;”

         “I have come to the conclusion that we should be here…for the sole reasons of making the
         relationships and connections. It is needed between the Americans and Chinese…Americans get
         lots of misinformation about China and vice versa.”

         “I think that PC/China has one of most import and serious jobs due to China-U.S. relations. The
         most important part of the job in China is the people to people relations.”

The CD and DPT have enhanced training and programming in support of secondary activities to
increase cultural exchange activities. 6 One program managers said, “Kudos to the CD for
realizing the importance of secondary activities. We push really hard for that and [senior staff]
get it.” One senior staff explained that the second goal of the Peace Corps mission is the true
mission of the post. The post’s FY12-14 IPBS stated that:

         The push is not just language proficiency but also cultural literacy, a niche that Peace Corps
         Volunteers are uniquely prepared to fill. With the two nations sharing what might be considered
         the most important political relationship in the world, that cultural literacy is important for citizens
         of both countries and is why the 2nd and 3rd goals of Peace Corps are so important for our
         Volunteers and our programming.

While some challenges remain, the cultural exchange offered by Volunteers has gradually gained
acceptance from Chinese partners. A 2001 OIG country program evaluation found that
Volunteers were rarely authorized by CEAIE to engage in secondary activities, their classroom
presentations and campus activities were closely monitored, and school officials cautioned
students and colleagues about establishing close relationships with Volunteers. In a meeting in
Beijing, CEAIE officials recalled that during the 1990s Volunteers were housed with other
foreign students to reduce their contact with Chinese communities. CEAIE officials indicated
that a change in attitude had occurred and they wanted to encourage cultural exchange. A similar
attitude was reflected in the program review requested by the CEAIE which interviewed national

5
  The mission of the Peace Corps is to promote world peace and friendship by: 1) Helping the people of interested
countries in meeting their need for trained men and women; 2) Helping promote a better understanding of
Americans on the part of the peoples served; 3) Helping promote a better understanding of other peoples on the part
of Americans.
6
  Secondary activities are generally described as, “some form of community service that is in addition to activities
that support the goals and objectives of their assigned projects and activities that support Peace Corps Goals Two
and Three.” Peace Corps Programming and Training Guidance, Version: October 2011, pg 63.


Final Program Evaluation Report: PC/China                                                                           7
and regional CEAIE representatives. The report, published in March 2011, stated that “the first-
hand or authentic knowledge of American culture” is one of the things the host country most
valued about Volunteers.

Volunteer community integration was impacted by Chinese government site placement
controls.

The Volunteers we interviewed stated that they were less integrated with Chinese communities
than they expected to be and they identified community integration as a significant challenge
during their service. AVS data from 2011 showed that only 33 percent of Volunteers in China
interacted daily or several times a week with host country nationals in community and family
social events compared to regional and global averages of 58 percent and 59 percent
respectively. Seventy one percent of Volunteers in China reported their community integration
was “adequate” or better compared to regional and global averages of 86 percent and 90 percent
respectively.

The second and third goals of the Peace Corps mission are to help promote a better
understanding of Americans on the part of the peoples served, and to help promote a better
understanding of other peoples on the part of Americans. Many returned Peace Corps Volunteers
(RPCVs) report that furthering these goals are often seen as the most satisfying aspects of Peace
Corps service. While the host government has come to value inter-cultural exchange, many
Volunteers do not see these goals being carried out to the extent they could be. We identified a
number of constraints that post is addressing and will need to be attentive to over time.

At the time of the evaluation, approximately half of all Volunteer sites were located in four
sprawling urban municipalities. Some of the larger schools where Volunteers were placed had
sufficient resources to hire a cadre of foreign English teachers, which created integration
challenges for Volunteers. Volunteers at these schools reported that they had difficulty
integrating with their Chinese colleagues. Volunteers also reported challenges interacting with
students because foreign teachers had set behavior norms or expectations that aligned poorly
with Peace Corps’s goals for cultural exchange. Many foreign teachers are not inclined or
expected to engage in social events or interact with students outside of class. Additionally, since
English literacy was more prevalent at the larger schools with more resources, Volunteers found
fewer opportunities to practice their Chinese skills, which created a barrier to interaction with
Chinese-speaking communities.

Volunteer housing has been selected by the Chinese government through the Office of Foreign
Affairs, known locally as the waiban office. Volunteers were placed in campus housing that was
generally of very good quality and safe. However, for many Volunteers the housing location
created work and integration challenges. Eight of the 25 Volunteers we interviewed commuted at
least thirty minutes each way between their housing and classes, and some as much as an hour
and a half. Commuting Volunteers found it difficult to hold office hours or participate in
afterschool activities, which limited integration opportunities with students and teachers. Four
other Volunteers lived on campuses that did not have a nearby off-campus community, which
limited opportunities to integrate with non-academic Chinese communities, particularly when
schools were out of session over the summer and winter breaks. Five Volunteers were placed in



Final Program Evaluation Report: PC/China                                                             8
housing reserved for foreign teachers, which made it more difficult for the Volunteers to
integrate with on-campus Chinese communities.

According to the 1998 Country Agreement, the CEAIE “has primary responsibility for helping to
facilitate and coordinate program operations at the local level.” In effect, the Chinese
government has controlled the Volunteer site selection and placement process. Over the past
three years post senior staff have pressed for host government support to shift the placement of
more Volunteers towards schools with limited resources and fewer in larger urban universities
that typically hire more foreign teachers. Senior staff reported some success at reducing
Volunteer placements at the largest schools and increasing them in some of the less-resourced,
smaller schools. In 2010 a Ministry of Education official indicated that expanded Volunteer
placements could be possible following a program review requested by the CEAIE and
completed in March 2011with positive results. The post hoped to gain ground on this proposal
during Vice President Joe Biden’s visit in August 2011, unfortunately no progress was made but
the post continues to move forward with this initiative.

To address Volunteer integration issues, the post has also implemented both programming and
training improvements that aim to increase community integration and local language skills. In
2010 the post initiated a host family program during trainees’ PST site visit. The goal was to
develop community connections for Volunteers before they arrived at their sites. The post also
implemented cultural leave days, which encouraged Volunteers to travel with Chinese
community members returning to their home communities during school breaks. A Continuing
Language Study Program was established that provided tuition reimbursements and leave
allowances to encourage Volunteers to attend formal Chinese language courses. These measures
should enhance Volunteer community integration.

Based on the post’s on-going, concerted attention to these issues and efforts to expand site
placement, we are not making a recommendation. However, OIG encourages the post to continue
to develop and implement additional strategies and continue efforts to extend Volunteer
placements to schools that offer more opportunities to further the Peace Corps’ three goals.

Peace Corps Volunteer leaders were unable to fulfill their job responsibilities.

At the beginning of the 2011-2012 school year, the post implemented three Peace Corps
Volunteer leader (PCVL) positions to provide additional technical support to Volunteers.
According to the statement of work, the scope of PCVL duties included providing support “both
from the office and at [Volunteer] sites.” Prior to implementing the PCVL positions the country
director approached CEAIE officials to obtain support for the new roles. Nonetheless, staff
encountered difficulties transitioning the three third-year Volunteers into the PCVL positions.
Despite requests and communications from staff, the schools where the PCVLs taught refused to
reduce class loads to permit the PCVLs to work and travel in support of other Volunteers during
the school week.

We determined that communication among post staff contributed to the challenges establishing
the PCVL positions. Staff reported that a Volunteer leader position had been successfully
implemented in the past, and they were confident that the post could obtain host country support



Final Program Evaluation Report: PC/China                                                      9
for PCVLs with the right approach to the complex Chinese bureaucracy and approval process.
However, the country director did not learn about the posts’ prior experiences with Volunteer
leader positions until after the post began implementing the new PCVL positions. A lack of
effective information sharing among staff, which has been discussed in a previous finding,
precluded past lessons learned from being applied to obtain partner buy-in for the PCVL roles.

Given the lack of support from their schools and the continuing requirement to conduct full
course loads, the PCVLs have been unable to travel to Volunteers’ sites and fulfill the job
responsibilities established in their job description. Additionally, because they carry full
schedules of teaching classes, the PCVLs were concerned that a spike in support requests could
exceed their support capacity. Unless modified to reflect what can reasonably be accomplished
under current constraints, the PCVL job descriptions may create unreasonable expectations
regarding their availability for Volunteer support needs.

               We recommend:

                 2. That the director of programming and training revise the
                    Peace Corps Volunteer leader job description.

                 3. That the director of programming and training and Peace
                    Corps Volunteer leaders establish reasonable support
                    expectations with Volunteers.

                 4. That the country director develop a strategy in
                    collaboration with the programming unit to obtain host
                    country support for the Peace Corps Volunteer leader
                    positions.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer living
allowance.

In reviewing overall staff support, OIG found no significant areas of concern that would
necessitate action by the post. Ninety-six percent of interviewed Volunteers were satisfied with
overall support from the post’s staff. Volunteers were satisfied with communications from
support staff. Table 1 shows Volunteer perceptions of staff support in key areas.




Final Program Evaluation Report: PC/China                                                        10
                        Table 1. Volunteer Perceptions of Staff Support 7
                     Support Area      Percent of Volunteers       Average
                                         Rating “Average          Rating for
                                        Support” or Better         Support
                  Leadership                           92%                       4.2
                  Programming                          92%                       4.4
                  Safety and Security                 100%                       4.7
                  Medical                             100%                       4.5
                  Administrative                      100%                       3.9

Volunteers were satisfied with the post’s leadership but expressed interest in additional
interaction with the CD. To address this interest, the CD has made an effort to interact with
individual Volunteers during PST and IST and also obtained a local driving permit to facilitate
additional interactions with Volunteers at their sites. Volunteers described the DPT as capable,
well-organized, and interested in their work. Volunteers approached the DPT with a variety of
support needs and were satisfied with the support provided.

Volunteers reported they were well-supported by the programming unit. Programming staff
communicated effectively and provided prompt and thorough support to Volunteers. Volunteers
were satisfied with feedback to their quarterly reports and with site visits conducted by
programming staff.

Volunteers reported high levels of satisfaction with the quality of safety and security and medical
support and their ratings of staff in our survey were high for both support areas. Volunteers were
satisfied with the safety and security coordinator’s (SSC) response to crime incidents and
reported feeling very safe in their communities. They were confident the SSC would respond
quickly and effectively to any safety and security-related issues they brought to his attention.
Most of the interviewed Volunteers had not experienced significant health issues. Volunteers
commented on and reported positive interactions with the medical unit staff and they expressed
confidence that any health-related issues would be addressed effectively and efficiently.

Administrative support received the lowest average rating of staff support. Volunteers explained
that they interacted less frequently with the director of management and operations (DMO) than
other staff, which is not unusual for the DMO position. Volunteers were satisfied with their
living allowance and there were no administrative support issues reported.

The peer support network required additional staff support.

In 2009, the Peace Corps Counseling and Outreach Unit worked with post staff to establish a
Volunteer peer support network, which they named Volunteers Supporting Volunteers (VSV).

7
  Leadership was derived by averaging the country director and DPT scores. Programming was derived by
averaging the program manager scores. Safety and Security was derived from the safety and security coordinator
score. Medical was derived from an overall score for the medical unit which included a local PCMO, an American
PCMO who departed in October 2011, an American back-up PCMO who began full-time duty in October 2011, and
a medical assistant. Administrative was derived from the director of management and operations score.


Final Program Evaluation Report: PC/China                                                                  11
Staff and Volunteers said the VSV network provided valuable support to Volunteers but they
also identified needed improvements.

According to a contract signed with the post, VSV members are obliged “to help create a
positive volunteer experience in China.” However, some VSV members have contributed to a
negative Volunteer experience. VSV workshops conducted at the 2011 PST were inconsistent
and Volunteers heard from VSV members that in certain situations it was acceptable to disregard
administrative policies, such as leave and travel requirements. Volunteers were dissatisfied with
the tone of the VSV workshops which they described as too negative. One VSV member, who
was unhappy with the conduct of other VSV members, said “If we don't agree with a policy we
should work to change it rather than break it or ignore it. It upsets me—we are supposed to be
examples.” Volunteers also observed that some VSV members had a generally negative outlook
on their experience, which they expressed to other Volunteers.

Staff and Volunteers believed that the quality of the peer support network could improve with
more effective selection criteria and increased staff support to the group. VSV members were
selected according to their interest, their region, and other characteristics such as experience and
group diversity. At the time of the evaluation, staff support to the VSV had been limited to
budget and logistical support from the DPT and Volunteers were dissatisfied that more staff were
not present during the PST workshops to answer policy questions or make presentations. The
medical unit had not been involved with VSV support. However a medical officer (PCMO), who
began full-time duty in October 2011, had previous experience with a peer support network at a
previous Peace Corps post. The DPT and PCMO had met to discuss the VSV and were
considering transferring VSV staff support responsibilities to the PCMO.

               We recommend:

                 5. That the medical officer provide oversight to the selection
                    of new Volunteers Supporting Volunteers members and
                    on-going support to the group.

                 6. That the country director ensure that the Volunteers
                    Supporting Volunteers network receives sufficient staff
                    support and oversight.


Volunteers were unable to identify their consolidation points.

According to the agency’s safety and security policy contained in the Peace Corps Manual
section (MS) 270.8.2, “The CD will assure that post staff and [Volunteers/Trainees] are trained
in the EAP and in individual EAP responsibilities.” As part of China’s EAP, each of the post’s
four regions had a designated consolidation point. Volunteers received training on the EAP
process and their responsibilities under the plan, including information on consolidation points,
yet 13 of the 25 interviewed Volunteers could not correctly identify their consolidation point.
Four other Volunteers said they knew the general location but could not name their specific




Final Program Evaluation Report: PC/China                                                        12
consolidation point. Volunteers’ unfamiliarity with their consolidation points posed a risk to their
safety should a consolidation be activated in an emergency.

                  We recommend:

                    7. That the country director ensure that all Volunteers are
                       familiar with their consolidation points.


Volunteers could not be located using the site locator forms.

According to the agency’s safety and security policy contained in MS270.8.1, “The EAP must
contain a mechanism for collecting and maintaining accurate and redundant means for
communicating with [Volunteers/Trainees].” The post complied with this policy by requiring
that Volunteers submit site locator forms (SLF), which contained information about the
Volunteers’ sites, including maps and directions to help staff travel quickly to their sites in the
event of an emergency.

While traveling to Volunteers’ sites, OIG reviewed the SLFs for accuracy. The quality and detail
of the maps and directions provided by Volunteers were not sufficient to locate Volunteers 8.
Volunteers developed maps and directions of their campuses but not the surrounding areas due to
the large size of their cities. Local drivers, including both an OIG-hired driver and an
experienced Peace Corps driver, were unable to locate six of the 20 campuses visited by the
evaluator. The Peace Corps vehicle was equipped with a global positioning system (GPS) but not
all of the SLFs included GPS coordinates or a street address that the GPS recognized. The
inadequacies of the Volunteers’ SLFs posed a risk that the post might be unable to travel to a
Volunteer site during an emergency should other means of communication be unavailable.

In April 2011 the SSC asked Volunteers to identify their GPS coordinates in order to develop
satellite images of their sites using the Google Earth program, which the SSC would attach to the
SLFs. At the time of the evaluation Volunteers had not completed this task.

                  We recommend:

                    8. That the country director and safety and security
                       coordinator ensure that site locator forms include
                       sufficient maps and directions for drivers to locate
                       Volunteers.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:
8
 The evaluator traveled by car to 20 sites. Five other Volunteers were interviewed at the Peace Corps office in
Chengdu due to scheduling restrictions.


Final Program Evaluation Report: PC/China                                                                         13
    •    training adequacy;
    •    planning and development of the training life cycle;
    •    staffing and related budget.

In reviewing the training goals, competencies, and learning objectives; trainee assessments;
training planning and development; and adequacy of training, OIG found no significant areas of
concern that would necessitate action by the post. The post had successfully implemented a
three-phase training model, which included nine weeks of pre-service training, self-directed
learning activities during the Volunteers’ first semester at site, and two-weeks of in-service
training. In previous years the post requested Volunteers with scarce skill and experience levels,
however since 2009 the training model has been effectively training generalist applicants to
become successful TEFL Volunteers. 9 Volunteers reported high levels of satisfaction with the
effectiveness of the Peace Corps training program.

                      Table 2. Volunteer Perceptions of Training Effectiveness
                                 Area                Moderate (3) /              Average
                                                   Above average (4) /           Rating
                                                    Very effective (5)
                        PST:
                          Language                          100%                     4.4
                          Culture                           100%                     3.7
                          Safety & Security                 100%                     4.3
                          Medical/Health                    100%                     4.2
                          Technical                          84%                     3.6
                        IST                                  94%                     3.6
                        PDM                                 100%                     4.7
                   Source: OIG Volunteer Interviews, 2011

PST technical training had lower effectiveness ratings than other training areas, although average
scores by cohort had increased in each of the last three years. In 2011 PST technical training was
improved by hiring four PC/China RPCVs to conduct PST. Volunteers commented that the
RPCV trainers’ in-country experience was an effective training resource. The post appeared to
have adequate staffing resources to deliver effective Volunteer training. However, staff reported
that budget resources will determine their ability to hire RPCV trainers for the 2012 PST. In
2011 the post sought additional resources to hire a full-time lead technical trainer who would
also provide Volunteer support, but funds were not available.

The CD and DPT have worked with the training staff to implement additional training
improvements, including an increased focus on secondary activities. The DPT implemented a
Project Design and Management (PDM) workshop in 2011 that Volunteers rated highly.
Volunteers said the workshop inspired their counterparts and helped them successfully
implement sustainable secondary projects in their communities.


9
 The term “generalist” refers to Volunteers with little or no applicable technical expertise or professional
experience, typically recent college graduates.


Final Program Evaluation Report: PC/China                                                                      14
Ninety-two percent of the interviewed Volunteers were satisfied with the host family they lived
with during PST. Trainees were also lodged with host families during visits to their sites in week
seven of PST. Eighty-one percent of interviewed Volunteers were satisfied with their host family
at site, which was in its second year of implementation. Average ratings for host families were
higher among first-year Volunteers, which reflected adjustments made by staff following the
initiative’s launch in 2010. Staff remained committed to further improving this program for the
2012 PST.


                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG announced its intent to conduct an evaluation of the post on August 4, 2011. For post
evaluations, we use the following researchable questions to guide our work:

   •   To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
   •   Does training prepare Volunteers for Peace Corps service?
   •   Has the post provided adequate support and oversight to Volunteers?
   •   Are post resources and agency support effectively aligned with the post’s mission and
       agency priorities?

The evaluator conducted the preliminary research portion of the evaluation August 8-October 7,
2011. This research included review of agency documents provided by headquarters and post
staff; interviews with management staff representing the Europe, Mediterranean, and Asia
region, the Office of Safety and Security, and the Office of Medical Services; and inquiries to the
Office of Volunteer Recruitment and Selection, Office of Intergovernmental Affairs and
Partnerships, and the Office of Private Sector Initiatives. After completing fieldwork,
information was gathered from the Office of the Chief Information Officer.

In-country fieldwork occurred from October 13-November 3, 2011, and included interviews with
post senior staff in charge of programming, training, and support; the U.S. Embassy First
Secretary, Economic/Labor Officer (former acting Consul General in Chengdu); the U.S.
Consulate regional security officer in Chengdu; and host country government ministry officials.
In addition, we interviewed a stratified judgmental sample of 25 Volunteers (15 percent of



Final Program Evaluation Report: PC/China                                                       15
Volunteers serving at the time of our visit) based on their length of service, site location, project
focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (formerly the President’s
Council on Integrity and Efficiency). The evidence, findings, and recommendations provided in
this report have been reviewed by agency stakeholders affected by this review.


                              INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 25 Volunteers, 14 staff members
in-country, and 13 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in China, the U.S. Consulate in Chengdu, and key ministry officials. Volunteer
interviews were conducted using a standardized interview questionnaire, and Volunteers were
asked to rate many items on a five-point scale (1 = not effective, 3 = average effective, 5 = very
effective). The analysis of these ratings provided a quantitative supplement to Volunteers’
comments, which were also analyzed. For the purposes of the data analysis, Volunteer ratings of
“3” and above are considered favorable. In addition, 16 out of 25 Volunteer interviews occurred
at the Volunteers’ homes, and we inspected 16 of these homes using post-defined site selection
criteria. The period of review for a post evaluation is one full Volunteer cycle (typically 27
months).

The following table provides demographic information that represents the entire Volunteer
population in China; the Volunteer sample was selected to reflect these demographics.

                              Table 3. Volunteer Demographic Data
                                                                   Percentage of
                                Project
                                                                    Volunteers
             TEFL                                                      100%
                                                                   Percentage of
                               Gender
                                                                    Volunteers
             Female                                                     58%
             Male                                                       42%
                                                                   Percentage of
                                  Age
                                                                    Volunteers
             25 or younger                                              49%
             26-29                                                      30%
             30-49                                                      13%
             50 or over                                                  8%
            Source: Volunteer roster provided by post in September 2011.
            Note: Percentages may not total 100% due to rounding.

At the time of our field visit, PC/China had 24 staff positions. The post also employs temporary
staff/contractors to assist with PST. Given the time of our visit, these positions were not staffed.
We interviewed 14 staff members.


Final Program Evaluation Report: PC/China                                                          16
                Table 4. Interviews Conducted with PC/China Staff Members
                             Position                        Status   Interviewed
       Country Director                                                  USDH               X
       Safety and Security Coordinator                                   PSC*               X
       Executive Assistant                                               PSC
       Director of Programming and Training                              USDH               X
       Program Manager (4)                                               PSC                X
       Program Assistant (2)(1 of 2 interviewed)                         PSC                X
       Training Manager                                                  PSC                X
       Language and Cultural Coordinator                                 PSC                X
       Training Assistant                                                PSC
       Director of Management and Operations                             USDH               X
       Financial Assistant/Information and Technology Specialist         PSC                X
       Cashier                                                           PSC
       General Services Manager                                          PSC
       General Services Assistant/Driver                                 PSC
       Driver                                                            PSC
       Administration Assistant                                          PSC
       Medical Officer (2)                                               PSC                X
       Medical Assistant                                                 PSC
       Medical Clerk                                                     PSC
   Data as of November 2011. *PSC is personal services contractor.

Thirteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

               Table 5. Interviews Conducted with PC/Headquarters Staff, U.S.
                  Embassy and Consulate Officials, and Ministry Officials
                             Position                       Organization
         Regional Director                                           PC/Headquarters/EMA Region
         Chief of Operations                                         PC/Headquarters/EMA Region
         Chief Administrative Officer                                PC/Headquarters/EMA Region
         Chief of Programming and                                    PC/Headquarters/EMA Region
         Training
         Safety and Security Desk                                    PC/Headquarters/EMA Region
         Officer
         Country Desk Officer                                        PC/Headquarters/EMA Region
         Director, Office of Medical Services                        PC/Headquarters/VS/OMS
         Area Peace Corps Medical Officer                            PC/Headquarters/VS/RO
         Information and Technology Specialist                       PC/Headquarters/CIO/POI/OPS
         First Secretary-Economic and Labor Officer                  U.S. Embassy in Beijing
         Regional Security Officer                                   U.S. Consulate in Chengdu
         Deputy Secretary General                                    China Education Association
                                                                     for International Exchange
         Deputy Director, Department of American &                   China Education Association
         African Programs                                            for International Exchange
       Data as of November 2011.


Final Program Evaluation Report: PC/China                                                          17
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the country director collaborate with host country and American staff to develop
   strategies that address cultural communications barriers and develop plans to: (a) ensure
   regular communications among staff and across units; and, (b) ensure channels of
   supervision between managers and local staff remain active and accessible.

2. That the director of programming and training revise the Peace Corps Volunteer leader job
   description.

3. That the director of programming and training and Peace Corps Volunteer leaders establish
   reasonable support expectations with Volunteers.

4. That the country director develop a strategy in collaboration with the programming unit to
   obtain host country support for the Peace Corps Volunteer leader positions.

5. That the medical officer provide oversight to the selection of new Volunteers Supporting
   Volunteers members and on-going support to the group.

6. That the country director ensure that the Volunteers Supporting Volunteers network receives
   sufficient staff support and oversight.

7. That the country director ensure that all Volunteers are familiar with their consolidation
   points.

8. That the country director and safety and security coordinator ensure that site locator forms
   include sufficient maps and directions for drivers to locate Volunteers.




Final Program Evaluation Report: PC/China                                                         18
APPENDIX A


                                LIST OF ACRONYMS
 AVS                      Annual Volunteer Survey
 CD                       Country Director
 CEAIE                    China Education Association for International Exchange
 DMO                      Director of Management and Operations
 DPT                      Director of Programming and Training
 EAP                      Emergency Action Plan
 EMA                      Europe, Mediterranean, and Asia Operations
 FA/ITS                   Financial Assistant/Information and Technology Specialist
 FY                       Fiscal Year
 IPBS                     Integrated Planning and Budget System
 IST                      In-Service Training
 IT                       Information and Technology
 OCIO                     Office of the Chief Information Officer
 OIG                      Office of the Inspector General
 PCMO                     Peace Corps Medical Officer
 PDM                      Project Design and Management
 PST                      Pre-Service Training
 RPCV                     Returned Peace Corps Volunteer
 SLF                      Site Locator Form
 SSC                      Safety and Security Coordinator
 TEFL                     Teaching English as a Foreign Language
 VAD                      Volunteer Assignment Description
 VSV                      Volunteers Supporting Volunteers




Final Program Evaluation Report: PC/China                                             19
APPENDIX B


                               AGENCY’S RESPONSE




Final Program Evaluation Report: PC/China          20
APPENDIX B




Final Program Evaluation Report: PC/China   21
APPENDIX B




Final Program Evaluation Report: PC/China   22
APPENDIX B




Final Program Evaluation Report: PC/China   23
APPENDIX B




Final Program Evaluation Report: PC/China   24
APPENDIX C


                                   OIG COMMENTS
Management concurred with all eight recommendations. Based on the documentation provided,
we closed five recommendations: numbers 2, 3, 4, 5, and 6. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

We wish to acknowledge the timely manner in which the post responded to the report and our
recommendations. We also commend the post for the thorough and relevant documentation it
provided in response to all eight report recommendations.

Three recommendations, numbers 1, 7, and 8, remain open. OIG will review and consider
closing recommendations 1, 7, and 8 when the documentation reflected in the agency’s response
to the preliminary report is received.




Final Program Evaluation Report: PC/China                                                       25
APPENDIX D


   PROGRAM EVALUATION COMPLETION AND OIG CONTACT
   PROGRAM EVALUATION             This program evaluation was conducted under the
   COMPLETION                     direction of Jim O’Keefe, Assistant Inspector General for
                                  Evaluations, and by Senior Evaluator Reuben Marshall.
                                  Additional contributions were made by Heather Robinson
                                  and Lisa Chesnel.




                                  Jim O’Keefe
                                  Assistant Inspector General for Evaluations

   OIG CONTACT                    Following issuance of the final report, a stakeholder
                                  satisfaction survey will be distributed. If you wish to
                                  comment on the quality or usefulness of this report to help
                                  us improve our products, please e-mail Jim O’Keefe,
                                  Assistant Inspector General for Evaluations and
                                  Inspections, at jokeefe@peacecorps.gov, or call (202)
                                  692-2904.




Final Program Evaluation Report: PC/China                                                       26
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG


                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129


                      Main Office: 202.692.2900
